TN

C@OQCKLE

2311 Douglas Street L Bri E-Mail Address:
€
Omaha, Nebraska 68102-1214 g a | t te fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU

 

ST. JAMES SCHOOL, PETITIONER

v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of March, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF AMICI CURIAE OF VIRGINIA, CALIFORNIA,
COLORADO, CONNECTICUT, DELAWARE, THE DISTRICT OF COLUMBIA, ILLINOIS, MASSACHUSETTS,
MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW YORK, OREGON, RHODE ISLAND, VERMONT, AND
WASHINGTON IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
MARK R. HERRING TOBY J. HEYTENS
Attorney General Solicitor General
KEONNA CARTER AUSTIN Counsel of Record
SAMUEL T. TOWELL MARTINE E. CICCONI
Deputy Attorneys General MICHELLE S. KALLEN

Subscribed and sworn to before me this 11th day of March, 2020.

Deputy Solicitors General
JESSICA MERRY SAMUELS
Assistant Solicitor General
ZACHARY R. GLUBIAK
John Marshall Fellow
OFFICE OF THE VIRGINIA
ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7240
solicitorgeneral@oag.state.va.us

1am duly authorized under the laws of the State of Nebraska to administer oaths.

GEWERAL MOTARY-State of Nebraska
A RENEE J. GOSS
My Come. Exp. September 5, 2023

  

     

Bos Oudiow-h, Qhle

 

Notary Public (7

Affiant 39458
 

Attorneys for Petitioners

Eric Christopher Rassbach The Becket Fund for Religious Liberty
Counsel of Record 1200 New Hampshire Avenue, NW
Suite 700

Washington, DC 20036

erassbach@becketlaw.org

Party name: Our Lady of Guadalupe School and St. James Schoo!

|

202-955-0095

 

Attorneys for Respondents

Jennifer Anne Lipski JML Law, A Professional Law Corporation
Counsel of Record 5855 Topanga Canyon Boulevard, Suite 300

Woodland Hills, CA 91367

jennifer@jmllaw.com

Party name: Agnes Morrissey-Berru and Darryl Biel

818-610-8800

 

 

Other:
Noel J. Francisco Solicitor General
Counsel of Record United States Department of Justice

Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: United States

202-514-2217

 

 
